<html>
<title> - MISCELLANEOUS TARIFF BILL: HELPING U.S. MANUFACTURERS THROUGH TAX CUTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








                MISCELLANEOUS TARIFF BILL: HELPING U.S.
                     MANUFACTURERS THROUGH TAX CUTS

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON TRADE

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 14, 2016

                               __________

                          Serial No. 114-TR01

                               __________

         Printed for the use of the Committee on Ways and Means




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-162                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















                      COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan,
DEVIN NUNES, California              CHARLES B. RANGEL, New York
PATRICK J. TIBERI, Ohio              JIM MCDERMOTT, Washington
DAVID G. REICHERT, Washington        JOHN LEWIS, Georgia
CHARLES W. BOUSTANY, JR., Louisiana  RICHARD E. NEAL, Massachusetts
PETER J. ROSKAM, Illinois            XAVIER BECERRA, California
TOM PRICE, Georgia                   LLOYD DOGGETT, Texas
VERN BUCHANAN, Florida               MIKE THOMPSON, California
ADRIAN SMITH, Nebraska               JOHN B. LARSON, Connecticut
LYNN JENKINS, Kansas                 EARL BLUMENAUER, Oregon
ERIK PAULSEN, Minnesota              RON KIND, Wisconsin
KENNY MARCHANT, Texas                BILL PASCRELL, JR., New Jersey
DIANE BLACK, Tennessee               JOSEPH CROWLEY, New York
TOM REED, New York                   DANNY DAVIS, Illinois
TODD YOUNG, Indiana                  LINDA SANCHEZ, California
MIKE KELLY, Pennsylvania
JIM RENACCI, Ohio
PAT MEEHAN, Pennsylvania
KRISTI NOEM, South Dakota
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri
ROBERT J. DOLD, Illinois
TOM RICE, South Carolina

                     DAVID STEWART, Staff Director

                   NICK GWYN, Minority Chief of Staff

                                 ______

                         SUBCOMMITTEE ON TRADE

                DAVID G. REICHERT, Washington, Chairman

DEVIN NUNES, California              CHARLES B. RANGEL, New York
ADRIAN SMITH, Nebraska               RICHARD E. NEAL, Massachusetts
LYNN JENKINS, Kansas                 EARL BLUMENAUER, Oregon
CHARLES W. BOUSTANY, JR., Louisiana  RON KIND, Wisconsin
ERIK PAULSEN, Minnesota              BILL PASCRELL, JR., New Jersey
KENNY MARCHANT, Texas                LLOYD DOGGETT, Texas
TODD YOUNG, Indiana
MIKE KELLY, Pennsylvania
PAT MEEHAN, Pennsylvania




















                            C O N T E N T S

                               __________
                                                                   Page

Advisory of April 14, 2016 announcing the hearing................     2

                               WITNESSES

Brooke DiDomenico, Production Manager, Nation Ford Chemical......    22
Dawn Grove, Corporate Counsel, Karsten Manufacturing Corporation.    16
Leib Oehmig, President and Chief Operating Officer, Glen Raven, 
  Inc............................................................     7
Matthew Schreiner, Global Leader for GORE-TEX Footwear 
  Innovation, W. L. Gore & Associates............................    27

                       SUBMISSIONS FOR THE RECORD

Herbert Stiefel, statement.......................................    45
Huntsman, statement..............................................    54
National Association of Manufacturers, statement.................    55
Organizations in support of the Act, letter......................    58
Nufarm, statement................................................    60
Thompson & Associates, letter....................................    62

 
                MISCELLANEOUS TARIFF BILL: HELPING U.S.
                     MANUFACTURERS THROUGH TAX CUTS
                            ----------                              


                        THURSDAY, APRIL 14, 2016

             U.S. House of Representatives,
                       Committee on Ways and Means,
                                     Subcommittee on Trade,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:11 p.m., in 
Room 1100, Longworth House Office Building, the Honorable Dave 
Reichert [Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    





                                 <F-dash>
    Chairman REICHERT. The subcommittee will come to order. 
Welcome to the Ways & Means Trade Subcommittee hearing on the 
Miscellaneous Tariff Bill. Before hearing from our witnesses, I 
would like to make a few points.
    Since 1982, Congress has considered bipartisan legislation 
to temporarily suspend or reduce tariffs on certain imported 
products and make technical corrections to U.S. tariff laws 
through legislation known as the Miscellaneous Tariff Bill, or 
as we will refer to those, as MTBs, because Miscellaneous 
Tariff Bill is a mouthful.
    The MTB is designed to boost the competitiveness of 
American manufacturers by lowering the cost of imported inputs, 
and in some cases finished goods, without harming domestic 
firms that produce competing products. Just as companies in my 
home State of Washington have relied on MTBs, I know that many 
of my colleagues will share stories from their own districts.
    Our manufacturers have used the savings from past MTBs to 
strengthen their competitive edge, support the creation of 
domestic manufacturing jobs, increase U.S. production, and 
contribute to the economic growth of the United States. But 
since the last MTB expired in 2012, American manufacturers of 
all sizes have been hurt because there is no process in place 
to cut their costs and help them compete.
    Beyond dollars, the expiration of the MTB has cost our 
manufacturers domestic jobs and undermined their 
competitiveness. We owe it to our manufacturers and to the 
economic health of the United States to find a solution, and I 
believe we have.
    I am very pleased that the ranking member, Mr. Rangel, and 
so many of our colleagues have joined with Chairman Brady and 
me yesterday in introducing legislation to establish a bill to 
strengthen the MTB process. Our bill delivers a regular, 
predictable legislative process for the temporary suspension 
and reduction of tariffs that helps our manufacturers and their 
employees, and it is also consistent with the rules of the 
House and upholds our strong ban against that word we all love 
to hear, earmarks.
    The process will begin by having our companies petition the 
Internal Trade Commission--International Trade Commission, 
excuse me--instead of having individual Members of Congress 
introduce bills. It will be a model of transparency. It gives 
the American people the ability to see the whole process all 
the way through. And at the end, we will fully comply with the 
publication requirements in the House rules.
    I am very pleased that our solution has such strong 
bipartisan and bicameral support and makes good on the 
commitment made by the conferees on the Customs Bill to find 
such a solution.
    And I will again yield to Mr. Rangel if he has any further 
statements that he would like to make before we go to the 
witness testimony.
    Mr. RANGEL. No, Mr. Chairman. I am anxious to hear from the 
witnesses.
    Chairman REICHERT. Okay. Thank you, Mr. Rangel.
    The first witness that we have with us today is Mr. Leib 
Oehmig, president and chief operating officer for Glen Raven. 
Our second witness is Ms. Dawn Grove, legal counsel for Karsten 
Manufacturing. Our third witness is Ms. Brooke DiDomenico--
close enough? DiDomenico--production manager for Nation Ford 
Chemical. Our fourth witness is Mr. Matt Schreiner, global 
leader of Gore-Tex Footwear Innovation at W.L. Gore & 
Associates.
    Before recognizing our first witness, let me note our time 
is limited. So please limit your testimony to five minutes. And 
we are going to ask the members to adhere to a three-minute 
rule today, as I said earlier, instead of the five-minute rule 
because of a possible vote.
    So Mr. Oehmig. You have five minutes.

    STATEMENT OF LEIB OEHMIG, PRESIDENT AND CHIEF OPERATING 
                   OFFICER, GLEN RAVEN, INC.

    Mr. OEHMIG. Chairman Reichert, Ranking Member Rangel, and 
distinguished Members of the Subcommittee, it is an honor to 
appear before you today as the subcommittee considers 
Miscellaneous Tariff Bill reform and the economic benefits of 
providing tax cuts on imported products that are not available 
in the United States.
    I serve as president and chief operating officer for Glen 
Raven, Incorporated. Glen Raven is headquartered in Glen Raven, 
North Carolina, where the company was originally founded in 
1880, and today remains under the same family ownership as its 
founder.
    Glen Raven employs more than 2700 associates globally, with 
approximately 75 percent of those associates located in the 
United States. We operate five manufacturing facilities in 
North and South Carolina, along with 12 distribution facilities 
in 11 States.
    Innovation has been a driving force throughout our 
company's history. For instance, Glen Raven is credited with 
the invention of pantyhose in 1958, the innovative use of geo-
textiles for building roads across America, and finding new 
ways textiles can bring clean water around the world.
    Today Glen Raven is most well-known for its Sunbrella brand 
of fabrics. The Sunbrella brand covers a family of performance 
fabrics for the furniture, shade, marine, and automotive 
industries. Our Sunbrella portfolio of products drives 
innovation throughout the industry and supports thousands of 
U.S. jobs in research and development, design, and 
manufacturing.
    The essential raw materials for Sunbrella are solution-dyed 
acrylic fibers. These fibers ceased to be available in the 
United States in 2005, so Glen Raven now imports these fibers 
and pays a 4.3 percent duty or tax on the value of these 
imports. These taxes make us less competitive in the global 
marketplace, where we are already confronting tremendous 
headwinds, including slowing global economic growth, currency 
challenges, and a rapidly changing regulatory environment.
    Solution-dyed acrylic fabrics are highly technical in that 
the coloring occurs during the manufacturing process for these 
fibers. Therefore, the color actually becomes part of the 
polymer. In traditional textiles, fibers, yarns, or fabrics are 
dyed after they are manufactured, and as a result, the color is 
only on the surface.
    The net effect is that solution-dyed acrylic fabrics are 
created from yarns fully permeated with color versus only 
having color on the surface. Sun, wear and tear, even bleach 
will not affect the color or performance of Sunbrella fabrics.
    In order to sustain Glen Raven's position as an industry 
leader and driver of innovation, we must have competitive 
access to these essential fibers, which are simply no longer 
produced in the United States. In the past, Glen Raven has 
effectively addressed the 4.3 percent import tax on acrylic 
fibers through the enactment of MTBs.
    Since the expiration of the last MTB in 2012, import taxes 
on acrylic fibers have cost Glen Raven millions of dollars that 
otherwise would have been invested in new jobs, research and 
development, design, and other innovative activities.
    Further, when you consider the productivity cost to the 
U.S. economy, the impact is substantial. According to a study 
by the National Association of Manufacturers, since the 
expiration of the last MTB, U.S. companies have faced a $748 
million tax hike on manufacturing, and an almost $1.9 billion 
economic loss to the U.S. economy.
    As I mentioned earlier, U.S. companies are already facing 
tremendous headwinds as we strive to compete in a global 
economy. A $748 million tax hike on raw materials and 
intermediate products that are not even produced or available 
in the United States is simply unwarranted.
    In closing, I know this Subcommittee and the Ways & Means 
Committee have long recognized the need and justification for 
MTB. On behalf of Glen Raven and our associates, I thank you 
for recognizing the importance of the MTB, but also urge you to 
move forward with a new and reformed process that will provide 
a level of certainty and predictability.
    Most companies make investment decisions on a five- to 10-
year horizon. For a medium-sized company like Glen Raven, when 
there is uncertainty about whether taxes will be imposed on our 
raw materials or whether there will be a process to provide us 
with relief, it significantly complicates our decision-making 
regarding where to invest and produce our fabrics.
    I hope Congress will work expeditiously in a bipartisan and 
bicameral manner to pass a new MTB process. I know for Glen 
Raven this is one of the most impactful actions Congress can 
take to spur investment and job growth.
    Thank you for the opportunity to present these 
perspectives. I will be happy to answer any questions the 
subcommittee may have.
    [The prepared statement of Mr. Oehmig follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
                                 <F-dash>
                                 
                                 
                                 
    Chairman REICHERT. Thank you for your testimony.
    Ms. Grove.

      STATEMENT OF DAWN GROVE, CORPORATE COUNSEL, KARSTEN 
                   MANUFACTURING CORPORATION

    Ms. GROVE. Thank you, Chairman Reichert, Mr. Rangel, 
members of the House Ways & Means Trade Subcommittee, 
Congressional staff, and guests. Thank you. Thank you so much 
for the opportunity to come and tell you how the Miscellaneous 
Tariff Bill really does encourage and preserve U.S. 
manufacturing, and can even create it.
    I am Mrs. Dawn Grove--I have been married to the love of my 
life for 21 years--and I am corporate counsel with Karsten 
Manufacturing. We are the parent company of Ping and foundry 
Dolphin. Ping is one of the top three golf equipment brands in 
the U.S. We have 831 employees in Arizona, and we have been 
making premium custom-fit golf equipment there for the past 57 
years. The company was started in my grandfather's garage, and 
we love the idea of making things in the USA.
    Nearly 60 percent of our workforce has been with us for 10 
years or more, and 30 percent with us for 20 years or more. I 
have only been there 18 years, so I am a relative newbie. We 
are very excited that several of our Ping golf pros may be 
selected for the U.S. and other countries' Olympic teams when 
golf returns to the summer Olympics in Rio.
    So Karsten Manufacturing is the only major golf 
manufacturer that has its own foundry in the U.S., and we used 
to be able to source our club heads from a number of different 
foundries. But those have since left the U.S. and fled for more 
business-friendly shores.
    We do still maintain our foundry. We do cast club heads. We 
have bought titanium furnaces to try and cast titanium club 
heads as well, even though that is not done anywhere else. But 
we simply cannot meet our demand or do that in a globally 
competitive way on a regular basis for the majority of our 
product. We do assemble the majority of our product and design 
it all in Arizona in the U.S.
    We have no choice but to source certain components and 
certain club heads from other countries in order to protect the 
jobs that we have in Arizona and the families that depend on 
our employees. And as much as we have a passion for making 
premium custom-fit golf equipment with quality and innovation 
and fabulous service, we also have a passion for doing so in 
the USA.
    Most every other golf equipment manufacturer has sent their 
production of golf clubs abroad, and you might wonder why that 
is. And one of the reasons is the tariffs and the way they 
incentivize that. Unbelievably, the U.S. golf equipment 
manufacturers are faced with a higher tariff rate to bring in a 
component part than we are to bring in the whole golf club. And 
so the industry has responded accordingly.
    Why does our Federal Government penalize us in this way? We 
do not know. I do not think it is intentional. There are 
mistakes that happen in the harmonized tariff schedule. But I 
understand it is very difficult to fix, and it even takes an 
act of Congress to do a Miscellaneous Tariff Bill for a 
temporary fix.
    So passage of the Miscellaneous Tariff Bill is not simply a 
special deal for us or others, actually not that at all in the 
golf industry. It is, rather, a way to help end the punishment 
for manufacturing here rather than abroad. So we literally have 
an inverted tariff--higher percentage rate for the component 
than we would pay to bring in the whole club.
    And if you could just allow me to tell you a quick story of 
how the MTB actually worked to bring manufacturing to the U.S., 
we have for decades built our golf carry bags that hold the 
golfer's clubs in the U.S., but at some point we realized that 
because the bag flats were not available here, and even though 
our bags were quite successful, we could not globally compete 
in bags without taking it elsewhere. And so in the late 1990s, 
with lots of tears and consternation, we opened a bag 
manufacturing plant in Mexico.
    At some point, another golf bag manufacturer requested an 
MTB to take that 7 percent tax, that tariff on the golf bag 
flat, down to zero. Well, we are always looking for a way to 
bring manufacturing back to the U.S., and when we saw that, we 
thought, that is the difference that could be made and we could 
do it in the U.S. again.
    And so, literally, we closed our bag manufacturing plant in 
the U.S. [sic] and we trained workers in Arizona to make our 
bags there, and we have done it ever since. Now that tariff has 
gone back up to 7 percent. So we have literally moved our whole 
production to another area and done all sorts of things to 
lessen the costs.
    It is very challenging, and it would mean a great deal to 
us if you were able to shepherd this across the finish line and 
get the MTB passed, let my family know that you appreciate our 
commitment to the U.S., and that you care about manufacturing. 
Thank you.
    [The prepared statement of Ms. Grove follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
                                    <F-dash>
                                    
                                    
                                    
    Chairman REICHERT. Thank you for your testimony, and we do 
hope this moves quickly. There will be a markup next week, so 
that is the next step in the process. So progress is happening. 
So with your help and your input, we appreciate your support 
and your testimony today.
    Ms. DiDomenico, please.

STATEMENT OF BROOKE DIDOMENICO, PRODUCTION MANAGER, NATION FORD 
                            CHEMICAL

    Ms. DIDOMENICO. Good afternoon, Chairman Reichert, Ranking 
Member Rangel, and fellow committee members. My name is Brooke 
DiDomenico. I am a chemical engineer and a production manager 
at Nation Ford Chemical. We are specialty chemical manufacturer 
located in Fort Mill, South Carolina. I am here on behalf of my 
company along with other domestic manufacturers and ask for 
your support in passing a revised process to allow 
manufacturers to petition for the removal of import tariffs on 
items not available to us from domestic sources.
    We are active members in both the National Association of 
Manufacturers and the Society of Chemical Manufacturers and 
Affiliates, both of which also support passing the 
Miscellaneous Tariff Bill.
    NFC is a small, family-owned chemical producer. We have 
been in business for over 35 years and employ approximately a 
hundred individuals at our facility. My plant produces products 
that impact the daily lives of Americans in countless ways, 
ranging from intermediates that are consumed in the USA, to 
productions of dyes that are used to color the food you eat and 
brighten the paper you write on, as well as a variety of other 
specialty chemicals, plastics, and naturally derived products 
that are sold both here and abroad.
    NFC is the sole domestic producer of colorants for the M18 
smoke canisters used by the U.S. Army and PANA, an additive 
used in jet engine lubricants that is literally in every jet 
aircraft flying today for both military and commercial use. If 
NFC were no longer in business, these products would be 
manufactured and imported from the Far East.
    As a toll manufacturer, many customers rely on NFC to make 
over a hundred specialty products that are only made at our 
plant. Many U.S. companies have shut down because of unfair 
competition from the Far East. The MTB is one step to help 
level that playing field.
    NFC, by necessity, must import some of the chemicals we 
need to support our production. Prior to the expiration of the 
previous MTB and the end of 2012, NFC has historically filed 
requests for several raw materials to be included in the MTB. 
The elimination of these duties has a large impact on the 
ability for our company to compete against imported goods. We 
currently spend over $100,000 annually on these duties, which 
is money that would have been reinvested in the company for 
growth and job creation.
    Domestic manufacturing as a whole has faced an annual tax 
hike of almost $750 million, an over $1.8 billion economic loss 
to the U.S. economy, according to an analysis done by the NAM. 
One specific example for us is the import of Dianil, which is a 
raw material used to manufacture a purple pigment at our 
facility. The pigment, called Violet Pigment 23, is 
manufactured at our plant in Fort Mill, South Carolina under a 
toll agreement for Sun Chemical.
    Because of the expiration of the MTB, up to $600,000 
annually will be paid in duties on Dianil alone. Since Sun 
Chemical purchases the raw material, this impact is in addition 
to the $100,000 I referenced for NFC-purchased raw materials. 
Therefore, the higher import duties affect not only NFC but 
also Sun Chemical and their downstream customers.
    This product has a very low profit margin, and the addition 
of these duties has made it even harder for us, the only 
domestic manufacturer of this important colorant, to compete 
against imported Violet Pigment 23. The elimination of the 
tariff on imported Dianil would allow NFC and Sun Chemical to 
be more competitive with Violet Pigment product that is 
currently being imported from foreign producers. This imported 
volume could all be manufactured domestically at our plant if 
we were able to lower the price.
    Since the MTB is only applicable to materials that are not 
manufactured domestically or available in sufficient 
quantities, it would not have a negative effect on domestic 
manufacturers. The MTB package considered by Congress in 2010 
was estimated to support 90,000 domestic manufacturing jobs, 
increase U.S. production by $4.6 billion, and expand U.S. GDP 
by $3.5 billion.
    NFC therefore strongly urges the Ways & Means Committee to 
support the Miscellaneous Tariff Bill. Thank you for your time 
and consideration.
    [The prepared statement of Ms. DiDomenico follows:]
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <F-dash>
                                 
                                 
                                 
    Chairman REICHERT. Thank you for your testimony today.
    Mr. Schreiner.

 STATEMENT OF MATTHEW E. SCHREINER, GLOBAL LEADER FOR GORE-TEX 
          FOOTWEAR INNOVATION, W.L. GORE & ASSOCIATES

    Mr. SCHREINER. Good afternoon. Thank you, Mr. Chairman and 
Members of the Committee, for the opportunity to testify on 
this important trade topic. My name is Matt Schreiner, and I am 
the global leader for Gore-Tex Footwear Innovation at W.L. Gore 
& Associates, headquartered in Newark, Delaware. I have been at 
Gore for more than 20 years, and currently I am responsible for 
new product development and innovation globally for our Gore-
Tex footwear business.
    Introduced in 1978, Gore-Tex technology revolutionized 
outerwear and footwear that could be both durably waterproof as 
well as breathable. For the first time, outdoor enthusiasts 
could be completely protected from the elements without having 
to endure sauna-like conditions inside of their jackets and 
shoes due to the buildup of heat and humidity.
    We are a privately held company founded in 1958. We employ 
approximately 10,000 associates worldwide; 6,000 of those are 
working in the United States. Our products find application in 
a wide range of industries, including electronics, military and 
consumer apparel, medical devices, and polymer processing.
    We are a proud member of the National Association of 
Manufacturers, which is leading industry efforts supporting MTB 
process that will benefit manufacturers like us. We are also 
active in the OIA, AAFA, FDRA on trade issues, including 
matters relating to MTBs. Clearly, MTBs are extremely important 
to all four groups.
    Virtually all of the thousands of products Gore makes are 
based on just one material, a versatile polymer material known 
as ePTFE, which we engineer to perform a wide variety of 
functions. In our Gore-Tex fabrics products, we create these 
polymer membranes in one of our Maryland facilities, which we 
subsequently laminate to textiles. These rolled good composites 
are eventually built into the finished apparel products, 
including outerwear and footwear.
    We sell our laminates and other functional components, like 
seam-sealing tape and gaskets, to some of the world's most 
well-known outdoor brands, including Brooks, Danner/LaCrosse, 
Marmot, Merrell, The North Face, Outdoor Research, Saucony, 
Wolverine, and Under Armour. Collectively, Gore and these 
partners create valuable innovation in technology that allows 
outdoor enthusiasts to enjoy their favorite outdoor activities.
    As a company and a brand, the success we have enjoyed to 
date derives from the extensive investments we make here in the 
United States, principally within our Maryland and Delaware 
campuses. It is here that we combine the essential ingredients 
of value creation in our products, such as fundamental 
materials R&D, product design and development, process 
engineering, prototyping, testing, and market research. Even 
though the assembly of our footwear is done internationally, 
the highest value is created in the U.S. and resides 
principally in our membrane, which is manufactured in Maryland.
    Performance footwear providing protection against the 
elements using coated or laminated textile fabric such as Gore-
Tex fabrics is subjected to duty rates as high as 37.5 percent. 
By comparison, the average consumer good has a duty rate of 
only 1.3 percent.
    Across the value chain, these tariffs pose significant 
economic disincentives for us, our customers, and footwear 
retailers, and they effectively narrow the choice and access of 
the U.S. consumer to the most technologically advanced footwear 
available. By contrast, consumers in other parts of the world 
are not subject to this onerous tariff, allowing them to 
purchase, at a much lower price, a broader range of innovative 
products designed in the U.S. by American workers.
    The MTB process greatly reduced these economic barriers and 
allowed the market to reflect the consumer demand for 
waterproof and breathable hiking boots and shoes. Brands added 
our technology more broadly across their product lines, and 
footwear retailers sold a wider range of styles at better price 
points.
    As a result, our sales revenue rose dramatically, and we 
continued to invest with confidence in our U.S.-based product 
innovation programs that we believed offered significant growth 
potential. Incidentally, this occurred at the time of a 
recession, and the positive effect certainly helped to secure 
American jobs in our U.S. facilities.
    I thought it might also be instructive to the committee to 
share with you one recent example of how the high footwear 
tariffs actually hampered the introduction of a new technology 
into the U.S. market.
    In late 2012, shortly after the MTBs expired, Gore unveiled 
Gore-Tex Surround technology. This is a new footwear innovation 
platform that we had been heavily investing in for years. With 
this innovation, we extended the breathable functionality of 
our footwear to include the sole of the shoe, dramatically 
increasing performance. The technology can be applied to a wide 
range of nearly every type of footwear that we work with today 
on the market.
    For new and innovative products, the up-front costs to 
produce and sell are typically much higher than for more 
established products. Our launch of this new technology 
coincided with the expiration of the MTBs, and the resulting 
duties of 20 to 37.5 percent essentially priced this technology 
out of the market. As a result, this innovation was introduced 
only to the European and Asian markets by non-U.S. brands, 
which allowed these brands effectively a first-to-market 
advantage.
    While U.S. footwear brands have since introduced the 
technology, they still have some catching up to do with their 
international competitors. And because of this lag, U.S. 
consumers still experience a limited choice of product 
featuring a technology developed by an American company.
    The MTB is a critical and effective tool for manufacturers 
like us to seek duty relief on high-value products. We are 
supportive of the new proposed MTB process because for Gore, 
MTBs have directly incentivized our investments in new and 
innovative technology, they have helped secure American jobs, 
and they have increased our global competitiveness.
    The MTB also helps ensure that the U.S. consumer can 
continue to enjoy their favorite outdoor activity while 
remaining comfortable and well-protected from the elements. 
Thanks for considering my remarks here today.
    [The prepared statement of Mr. Schreiner follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <F-dash>
                                 
                                 
    Chairman REICHERT. Thank you all for your testimony, and 
the people on the panel here, members will have questions. And 
reminder to the members that we will hold everyone to three 
minutes.
    So the testimony, of course, I think that everybody 
listened to. And I was very interested in hearing how--this 
really made it clear to me that American families are really 
the ones who ultimately pay the price as a result of these 
tariffs. And regardless, though, whether these tariffs are on 
inputs used in manufacturing or on the products that they buy 
in the stores, the customer ends up paying the bottom line.
    So Mr. Schreiner, in the Pacific Northwest, we like to 
consider ourselves to be the outdoor enthusiasts that you 
described in your testimony. And this is a great story of how 
the MTB impacts your business and how it impacts your customer. 
And I was just wondering if you could just go into that in a 
little more depth on how MTB would benefit your consumers and 
reduce prices on store shelves, even when duties are suspended 
on inputs, components, or semi-finished products.
    Mr. SCHREINER. Sure. Chairman Reichert, in fact, two 
customers of ours are based in the Pacific Northwest, Brooks 
Sports as well as Nike. So we enjoy nice business with both of 
those world-class footwear organizations.
    To add our technology to a shoe generally affects the 
consumer at about a--requires about a $15 to $25 upcharge, 
depending on how it is incorporated into the finished shoe. The 
tariffs, 37.5 percent tariff on that, can add anywhere from an 
additional $12 to $17. So it becomes a pretty dramatic, and 
what we believe, an onerous tax to the end consumer purely to 
provide the--to pay the tariff back to Treasury.
    So obviously, what that does for us as a high-value 
component brand is it limits, sometimes, the range of product 
that we can be found in at retail. It forces some of our 
customers to down-select to less expensive technologies that do 
not originate in the U.S, despecifying Gore-Tex, for example, 
for a much less expensive alternative that may be sourced 
somewhere closer to the point of footwear assembly offshore in 
the Asia Pacific region.
    Obviously, that affects our business and it affects our 
ability to manufacture the membranes, which are essential 
components for this finished footwear.
    Chairman REICHERT. Thank you.
    Mr. Rangel.
    Mr. RANGEL. Thank you. It is a real comfort for us to be 
doing something where the witnesses are pleased that we are 
helping to improve competition with U.S. firms.
    Mr. Oehmig, I understand that your subdivision, Sunbrella, 
is having a 65 or 70 percent clearance on fabric. But I do not 
see anything that those of us from urban communities can use it 
for.
    Mr. OEHMIG. Yes. In terms of use of the fabric?
    Mr. RANGEL. I do not know. Anything that is 70 percent 
discounted, I am interested in. But I have no clue as to what 
Sunbrella would do for an urban dweller.
    Mr. OEHMIG. When you mentioned a 70 percent discount, 
what----
    Mr. RANGEL. I read someplace that you are having a 
clearance sale on your stuff there at Sunbrella. You better 
check it out back home.
    [Laughter.]
    Mr. OEHMIG. Well, we are about value-added. We hope we are 
not discounting, so I do not know where you saw that. We need 
to look into that for sure.
    Mr. RANGEL. Okay. We welcome the Mexican jobs coming back 
to the United States. We appreciate it.
    For Ford Chemical, I am glad that you recovered from that 
severe fire that you have suffered and you are back in business 
and competitive.
    And that shoe technology, is that just for outdoor shoes, 
or dress and casual shoes?
    Mr. SCHREINER. Dress and casual.
    Mr. RANGEL. Is that on the market already?
    Mr. SCHREINER. Dress and casual as well.
    Mr. RANGEL. Is it online?
    Mr. SCHREINER. Oh, yes. You can find it online for sure.
    Mr. RANGEL. In your dress shoes. Thank you for your 
testimony. We like to be partners with you in your success. 
Yield back.
    Chairman REICHERT. Ms. Jenkins.
    Ms. JENKINS. Thank you, Mr. Chairman. Thank you to the 
panel.
    According to a case study by the National Association of 
Manufacturers, the Bayer facility, located in Kansas City, 
which is just miles from my district, employs about 625 people, 
the majority of which are involved in the manufacturing, 
handling, and sales of ag crop production products containing 
imported materials.
    Bayer in Kansas City also supports upstream local suppliers 
of goods and services, and for every imported material 
utilized, it is estimated that seven to eight locally sourced 
raw materials and packaging goods are consumed. These advanced 
crop production products produced in Kansas City help ensure 
high-quality, high-yield crops that provide affordable 
nutrition and clothing for people in the U.S. and around the 
entire world.
    As part of a multinational corporation, the Kansas City 
site is in competition with Bayer's foreign locations and third 
party manufacturing for new and expanded capacity investment. 
Considering most foreign manufacturing locations operate in a 
duty-free environment, the Miscellaneous Tariff Bill will help 
Bayer in Kansas City remain a competitive option for creating 
and keeping manufacturing jobs in the United States.
    But let's not forget that the MTB will also help much 
smaller businesses stay globally competitive. In 2010, Kansas 
Global conducted a survey of member companies in 10 counties 
located in South Central Kansas and found that approving the 
MTB would have provided approximately $3 million in savings 
over a two-year period.
    Now, some of these companies are larger companies, but most 
are like Ken Gebhart's Celestaire, which is the only domestic 
seller of analog navigational equipment in the U.S. Celestaire 
is a three-person company that averages about $800,000 in 
annual sales, but more than half of those sales come from 
exports. Getting the MTB approved will help Ken compete against 
companies in Japan and Germany.
    Approving the Miscellaneous Tariff Bill will help 
manufacturers in the U.S. and will help create and save jobs. 
And I am excited that we are finally moving forward with this, 
Mr. Chairman. I yield back.
    Mr. BOUSTANY. Thank you, Mr. Chairman. I really appreciate 
this hearing.
    I want to thank you all for your very compelling evidence 
you have given us for why we need to do this. And it is high 
time that we act and move forward, and that is exactly what we 
are going to do. We have got a bill, and hopefully we will get 
this done. We are way behind in getting you relief.
    I was really interested in the family business angle on 
this and your stories about companies, home-grown, family-
owned, multiple generations. That is the country we want to see 
continue.
    And Ms. DiDomenico, your testimony with regard to the 
chemical industry is very compelling to me particularly because 
in my home State, Louisiana, we have a very robust chemical, 
petrochemical, and plastics industry. And this indeed is 
extremely important to us there. In fact, I think in Louisiana 
in the petrochemicals production category, we rank second 
nationwide.
    For our companies to be able to grow, expand, create jobs, 
export, now with new export opportunities arising, getting this 
MTB issue fixed and taken care of is critically important. So I 
want to again thank you.
    And of course with Gore, I am very familiar with products 
in a different product line than what you have taken care of 
for the most part, on the medical side. And I certainly want 
to--your company has been one of the bright spots in American 
innovation over time. And so we want to ensure that you 
continue to innovate and have all the inputs necessary to do 
so.
    Mr. SCHREINER. Thank you.
    Mr. BOUSTANY. So I do not really have any particular 
questions. I just want to thank you all for being persistent, 
for being patient with Congress. Sometimes things move very, 
very slowly.
    And Mr. Chairman, I want to thank you and your leadership 
on this, Mr. Tiberi's leadership, Mr. Rangel, for moving this 
forward. And I will yield back.
    Chairman REICHERT. Thank you.
    Mr. Smith, you are recognized.
    Mr. SMITH. Thank you, Mr. Chairman, and thank you to our 
witnesses. I appreciate your expertise and insight on these 
very important issues. I know, representing agriculture, 
agricultural producers have really suffered, I think, a lot of 
the brunt of some upside-down policy, if that is the right 
term. And I am encouraged that we have a path forward.
    Mr. Schreiner, not only do I represent agriculture, but 
some retail as well, a fairly well-known retailer named 
Cabela's. And I know that they have your products. And we know 
that addressing the problems that we are facing will actually 
add some value, and I think that that is good for our economy 
in general.
    Can you explain a little bit how that might be carried out?
    Mr. SCHREINER. Sure. I would be happy to, Congressman 
Smith. Cabela's is both a very important customer of ours, and 
in the value chain, they are a very important retailers for 
many of our customers. You see, we sell directly in some cases 
to retail brands like Cabela's, who make their own Cabela's 
branded apparel and footwear, but we also sell to a number of 
the primary hunting brands that sell through that retail 
channel.
    So as a customer, Cabela's obviously would benefit from the 
Miscellaneous Tariff Bill because they would be able to 
continue to source--bring products in that can only be 
manufactured, for the most part, offshore for the type of 
footwear that they produce, and they would be able to offer 
those products at a more reasonable price point for their 
consumer, and they would be able specify higher technology in 
those products, which they might not be able to afford to do 
when the tariffs are in place.
    And the same benefits would accrue as well to the brands 
that sell through Cabela's as a retailer. So we work very 
closely with Cabela's on a number of levels. And I have not 
talked to them specifically about their position on this, but I 
would be willing to bet that they as well would be extremely 
supportive of the Miscellaneous Tariff Bill.
    Mr. SMITH. All right. Thank you very much. I yield back.
    Chairman REICHERT. Mr. Kind, you are recognized.
    Mr. KIND. Thank you, Mr. Chairman. Thanks for holding this 
hearing. And I want to thank the witnesses for your testimony 
today.
    Ms. Grove, let me ask you, and I want you to think about 
this answer very carefully before you give us a response, but 
can you reassure our committee today that Jordan Spieth was not 
using a Ping club when he shot No. 12 at Augusta last Sunday?
    Ms. GROVE. Did you see that our player Lee Westwood 
actually won second place? He came very close. And Bubba Watson 
has won two of the last four Masters tournaments. But we really 
felt for Jordan Spieth. He is an excellent player. Really sad 
for him having a tough moment.
    Mr. KIND. He did. Do you want to call out any competitor's 
club at this time?
    [Laughter.]
    Ms. GROVE. No, thank you.
    Mr. KIND. Let me ask the panel, just generally, just a 
couple of generic questions.
    The only way this is going to work, obviously, politically 
is if we are not supplanting or replacing any domestic product 
line that is available. That is one of the criteria to moving 
forward with the ITC request. Are you aware--have you seen--an 
instance where a certain product was manufactured as a result 
of the absence of it being in the United States because of the 
MTB barrier that existed? Or a company saw a need, high 
tariffs, and decided to make something here domestically as a 
consequence? You are not aware of any instance off the top of 
your heads?
    Well, let me ask you, has your company felt any pressure to 
possibly move a product line to another country in order to 
avoid the MTB tariffs? I see a couple of heads nodding.
    Mr. OEHMIG. We have got a global platform, and so we feel 
the pressure to move product lines from the U.S. But we are 
committed here, as I said before. Seventy-five percent of our 
associates are here. It is where our company was founded. We 
have a huge commitment here in infrastructure. It is the 
largest market and most important market.
    And so we are obviously resisting those temptations, and 
quite frankly, we are paying the penalty. I mean, we continue 
to invest here. We have had three significant capital projects 
this past year. We just pushed away from the docks on a $20-
plus million capital expenditure that will benefit North 
Carolina. So we continue to pay that price.
    But we just imagine the level of investment that we could 
be making if we were not having to pay the duties.
    Mr. KIND. That is right. Ms. Grove, did you nod your head 
as well?
    Ms. GROVE. Yes. That really is an issue, that we could make 
it cheaper somewhere else and not have to pay this accelerated 
amount for the completed--for the component part as opposed to 
the completed product.
    I want to say, too, that the ITC is very thorough in the 
way it vets. I remember with the golf bag flats that at one 
point they said they were not going to do the MTB because there 
was a supplier of those flats in the U.S. And I said, please, 
tell me who that is. And they said, well, no. It is an 
anonymous process. And I was worried about it at first.
    But we eventually found out that it was a sales guy in 
Georgia who was representing a company that made them in China. 
So once we figured that out and realized, no, there really was 
no domestic production, we moved on. But it is a very thorough 
process.
    Mr. KIND. Okay. Great. Thank you.
    Thank you, Mr. Chairman.
    Chairman REICHERT. Thank you.
    Mr. Paulsen.
    Mr. PAULSEN. Thank you, Mr. Chairman. And I want to thank 
everyone for being here as well today. This is an issue that is 
really essential to American manufacturing, which is what your 
testimony has been so compelling to hear.
    As well as in my home State of Minnesota, but I do remember 
being in Arizona just a few years ago and hearing the Ping 
story. And this issue was raised about when are we going to 
have action on this issue from a real American success story. 
And so it is great to hear your testimony here again today.
    And so we have heard the statistics. You have all shared 
them. But it really does bear repeating, Mr. Chairman, because 
if you think about since the last MTB bill expired back just a 
few years ago, we have seen another $748 million in higher 
taxes for American domestic manufacturing. You have American 
manufacturers every year have now had an almost $2 billion hit 
to our economy because of this.
    In the MTB package back in 2010, it was found to support, 
as was mentioned, 90,000 jobs right here in the United States, 
increased production of $4.6 billion, and expanded our economy 
by about $3.5 billion. These are significant numbers, and it is 
a pretty good bang for your buck, if you think about it--
thousands of jobs, billions of dollars going into the economy, 
for a few million dollars in lower tariffs that does not impact 
negatively any other American manufacturer or domestic 
importer.
    And a perfect example in Minnesota is a company called 
Knitcraft, a domestic sweater manufacturer. They are in 
Minnesota. They used to buy the wrinkle-free specialized 
mercerized cotton that it needs to make its sweaters from 
American producers. But eventually higher costs and overseas 
competition drove the U.S. cotton producers out of business so 
they did not have that source in the market.
    So Knitcraft was forced to turn to an Italian supplier to 
get the inputs needed to manufacture and then sell their 
sweaters. But of course that came at a price--higher tariffs, 
of course, on those inputs. And they got hit twice. They got 
hit once by the inputs on the tariffs on the cotton they 
imported from Italy, and they also got hit on new tariffs on 
their sweaters that they sold in Canada.
    And so when Knitcraft was sourcing their cotton from the 
United States, their sweaters did not face a tariff in Canada 
due to trade agreements between the two countries. But when the 
inputs started coming in from Italy, the company lost the duty-
free treatment of their products north of the border.
    So I am really encouraged by today's hearing. I have one 
quick question I want to ask the panel, and maybe just a couple 
can respond quickly. I understand that the tariffs on certain 
finished goods are lower than the tariffs on inputs needed to 
manufacture these finished goods. And we already heard the Ping 
story.
    But anyone else? How does that put our manufacturers at a 
competitive disadvantage, and how do MTBs help to counteract 
this competitive disadvantage? Because again, higher tariff on 
your finished good versus a lower tariff on the input. Anyone?
    Mr. SCHREINER. Yes. I do not have a good perspective on 
that, unfortunately, at this stage, Mr. Paulsen. I apologize. 
But I can say in your State we work very closely with one of 
the major manufacturers in your State, 3M, with their 
Thinsulate insulation.
    Mr. PAULSEN. Right. Correct.
    Mr. SCHREINER. Right? And like us, 3M brings a lot of their 
innovation, and a lot of that process occurs in their labs and 
in their facilities in Saint Paul. So they--I think for 
competitive reasons they source and do some of their 
manufacturing for certain higher volume commodity products 
offshore. But I would argue, similar to us, a lot of the jobs 
that are created in building that high-value content into those 
products is because of a lot of people in Saint Paul.
    Chairman REICHERT. Thank the gentleman. His time is 
expired.
    Mr. Neal.
    Mr. NEAL. Thank you, Mr. Chairman. I am supportive of this 
initiative and have been. I want to just use a few minutes of 
my allotted time to call attention to something I think is 
fairly consistent here now. And there is frequently the 
complaint from our friends, and I do mean our friends, on the 
other side about the tyrant at the White House who is always 
usurping congressional authority. But he usurps it because 
there is not even a fight.
    And I have opposed expanding authority for the executive, 
regardless of who sits in the chair. So we now have the line 
item veto, balanced budget amendment to the constitution, and 
we now have to ask for water resources reform and development. 
We have a moratorium on earmarking. And to get around all of 
this, we come up with these arguments to artificially get us to 
where we are today.
    Now, we all support what these people have done. It is 
terrific. But the way we are doing this, as opposed to the way 
we used to do it, we are surrendering our institutional 
prerogatives and responsibilities. And I have seen it happen 
time and again, and then in the next breath complain about the 
executive who takes our authority.
    There is a good reason that Congress is mentioned as the 
first branch of government, and it is actually to oversee the 
executive. So here, in order to get past this kind of once 
again chicanery, we decide that we are going to come up with 
this artificial mechanism to accomplish an end for good people 
who now have waited a long time to see this happen when this 
could have been done the way it was once done in Congress, 
through what we call the regular order.
    So I support the legislation. It is a benefit to our 
manufacturers. These are all nice stories that everybody told 
today. But I want to tell you, at some point the executive does 
become all-powerful because the legislative branch does not 
stand up for its institutional responsibilities and 
prerogatives. And I think there is a profound inconsistency 
with what we do.
    To our panelists: How long have you waited for this 
legislation to be passed?
    Mr. OEHMIG. 2012. I mean, we were hugely disappointed when 
it expired. I mean, it was very impactful on us then from a 
planning perspective. So we have certainly been----
    Mr. NEAL. So four years?
    Mr. OEHMIG. Yes.
    Mr. NEAL. Ma'am?
    Ms. GROVE. On the golf bag flats, it has been just those 
few years. But on the golf clubs, we have not had that relief 
yet. So we proposed it, but at the time we proposed it and got 
the whole golf industry involved and, happy to say, came up 
with something that worked, the MTB was not being considered 
any more. So we have waited for decades.
    Mr. NEAL. Decades.
    Ms. DIDOMENICO. Yes. We have also been waiting four years, 
and we have been here every year asking for this bill to pass.
    Mr. SCHREINER. Yes. Similar, and prior to 2012. The 
uncertainty of it consumes an awful lot of customer 
conversations when we could be talking about more productive 
things about how to drive more innovation and how to create 
more jobs.
    Mr. NEAL. Mr. Chairman, there is a time when this would 
have moved through the Congress on a bipartisan basis without 
having to resort to the gimmickry that we have now to get 
around promises that were perhaps ill-considered when they were 
made. I yield back my time.
    Chairman REICHERT. Thank you, Mr. Neal. I have just been 
here about 11 years, and I remember those days. So I just look 
like I have been in Congress 40 years. I had a career before 
this.
    [Laughter.]
    Chairman REICHERT. But also point out that I just became 
the chairman in December and look where we are today, Mr. Neal.
    Mr. NEAL. Would the gentleman yield?
    Chairman REICHERT. I will yield.
    Mr. NEAL. You can undo it right now and we will make like 
we did not even notice.
    [Laughter.]
    Chairman REICHERT. Well, I know that Mr. Neal and folks on 
his side of the aisle recognize that there are some of us on 
the Republican side of the aisle that agree wholeheartedly with 
the views that he has just expressed. And some of us have been 
vocal about that. And the next gentleman that you are about to 
hear from, Mr. Kelly, I know is in that group, too.
    So Mr. Kelly, you are recognized. I hope, anyway.
    Mr. KELLY. Thank you, Chairman.
    But I want to thank all of you for being here. So much of 
what we talk about when we are in session is policy. But what 
we do not talk about is the people that the policy affects. So 
you showing up, you are the face of what it is that we have to 
address. It is not just some kind of an ideological discussion 
or a debate. It is about how we are harming you in a way that 
makes you uncompetitive in a global economy.
    And so every one of you--and I was looking through it. Mr. 
Oehmig, you talk about Sunbrella and the fact that you can no 
longer buy the fabric you need because--you cannot buy it 
stateside because it is not produced stateside. Right? So you 
have to get it from outside?
    Mr. OEHMIG. That is correct.
    Mr. KELLY. And Ms. DiDomenico, you talk about Dianil. 
Right? And, I mean, this is stuff that--you use these things to 
make colors. So is this Dianil only available from certain 
sources?
    Ms. DIDOMENICO. Yes. There are only a few sources, and they 
are all overseas.
    Mr. KELLY. They are all overseas. Okay.
    So we go to Gore-Tex, and what you talked about, I was 
trying to understand, and maybe you can help me on this. You 
talked about a versatile polymer called ePTFE. I have 
absolutely--I see it--it is kind of bracketed, what it is, but 
I will not even try to say it. Where do you have to get that 
material?
    Mr. SCHREINER. That material is produced domestically.
    Mr. KELLY. It is produced domestically?
    Mr. SCHREINER. Yes.
    Mr. KELLY. Okay. And Ms. Grove, on the----
    Mr. SCHREINER. The feed stocks for that material as well 
are produced domestically.
    Mr. KELLY. Yes. And Ms. Grove, your company produces golf 
clubs. But you are in a global economy. We are all fighting for 
the same thing. I am an automobile dealer, and on the side of 
every new car is what they call a Monroney label. But also on 
the Monroney label, in addition to each item--and, by the way, 
the cost on any particular car is the same no matter whether 
you buy it in Detroit, where it is produced, or whether you buy 
it in Miami. It is the same price. They have equalized the 
pricing on it--but also, in addition to that, is the content of 
how these products are made. It is the end product.
    Now, there are a lot of people that make small things that 
go into the end product of a big thing--that you put out in the 
market. And I think what we are trying to get to is, why would 
your own government make it harder for you to be successful? 
Especially when all the revenue we derive is from people who 
are successful. It just doesn't fit, and I am not sure I 
understand.
    Maybe, Mr. Neal, you have been here a lot longer, and 
maybe, Mr. Rangel, you have, too, and Sheriff, you and I have 
been together here for a couple years. I am just trying to 
think. So if you really wanted to make yourself globally 
competitive, and you wanted to be on the shelf at the same 
price as other people, and you wanted to be able to building 
buildings, and you wanted to be able to invest in equipment, 
and you wanted to be able to hire people and train people and 
provide all these wonderful revenues, we have to make you 
equal, at least being on a level playing field. Why would we 
make it harder for you?
    And so I am with you, Mr. Neal. I mean, it is just bizarre. 
So the people we rely on for all the revenue, we are going to 
make it harder for them to be successful, and then we are going 
to hold them accountable for wanting to leave. It does not make 
sense.
    Listen, I am out of time. But I think also, not only--am I 
out of time? You are out of time, too. You need a government 
that is going to respond to make sure that you can compete 
globally. And if we think this is a problem or we cannot get 
through because it has some kind of political implication, let 
me just say, too often politics interfere with policy that is 
good for people.
    Thank you all for being here. You are the face of America, 
and you are the face of people who provide every single penny 
that this government uses to provide all these wonderful 
services to folks. So thanks so much.
    Chairman, thank you.
    Chairman REICHERT. You are welcome. We always let Mr. Kelly 
go a few minutes extra.
    [Laughter.]
    Mr. Tiberi, do you have----
    Mr. TIBERI. Yes. Thank you, Mr. Chairman. Thank you for 
your leadership on this.
    And Mr. Neal, you are starting to convince me on some of 
these issues. I will yield.
    Mr. NEAL. It has been a long haul.
    [Laughter.]
    Mr. TIBERI. But I want to challenge your narrative here on 
one issue. So if we had not given up our authority on earmarks, 
I still doubt that that would have had any impact on this 
Administration on the overtime rules that I just met with a 
group of small businesses on, or the fiduciary rule, which you 
are quite familiar with, or the power plant rules, or the 
immigration rules, or the EPA rules, or the Waters of the USA 
rules.
    Mr. NEAL. Right.
    Mr. TIBERI. And I could go on. So I do not know that that 
would have stopped them from doing what they are doing, which 
is----
    Mr. NEAL. Would the gentleman yield?
    Mr. TIBERI. Yes, I will. Go ahead.
    Mr. NEAL. There is a slow encroachment of executive 
authority that dates to the founding of the country.
    Mr. TIBERI. Great.
    Mr. NEAL. And every time that we forfeit the 
responsibility, they take more. But in this instance here--and 
the cases, by the way, you have used as an example on the DOL 
rule, I was willing to challenge my own administration.
    Mr. TIBERI. Yes. You were one of the few.
    Mr. NEAL. We need to do that from time to time.
    Mr. TIBERI. I agree. I agree.
    Mr. NEAL. I mean, that is congressional authority.
    Mr. TIBERI. So Ms. DiDomenico, you clearly understand, 
based upon your testimony, the challenges that we have had here 
internally in dealing with this rule. But we also have, and I 
think there would be bipartisan agreement, that even within 
this own body, there is a lot of misunderstanding of what an 
MTB is, including a notion that cuts on businesses like those 
of you who are here today on these tariffs--or tax cuts on 
American business, essentially--somehow will increase 
Congressional spending. And some believe that this is also an 
earmark.
    Can you, in layman's terms, expand upon your testimony and 
tell Members of Congress for the record why you may not believe 
that?
    Ms. DIDOMENICO. Yes. By the money that we would save on 
these duties, we would be able to employ one or two more people 
just for one raw material alone. Then you compound that for all 
the other raw materials that we are purchasing, and we could 
employ many more people, invest back in our company, and that 
money, through income taxes and other ways, would go back to 
the government. So to say the government is losing out on 
revenue, I do not think that is a true statement.
    And to say that it is an earmark, we do not think that is 
the case because although one company may submit the MTB, there 
could be several other manufacturers that are using that same 
product. So we also do not feel that it is an earmark.
    Mr. TIBERI. Thank you so much. My time is expired. Thank 
you, Mr. Chairman.
    Chairman REICHERT. Thank you.
    Mr. Holding.
    Mr. HOLDING. Thank you, Mr. Chairman. Mr. Chairman, I want 
to thank you, and I want to thank the subcommittee staff for 
working hard to come up with the MTB that we are here to talk 
about today.
    This particular issue, the MTB issue, is one of the 
principal reasons that I sought to join the Ways & Means 
Committee and become the first Republican in 30 years from 
North Carolina to serve on the Ways & Means Committee. It is an 
important issue for North Carolina.
    And Glen Raven, Mr. Oehmig, the CEO of Glen Raven, it is an 
honor for me to have you all here today. Glen Raven is a North 
Carolina institution. And Mr. Chairman, I would point out that 
this is a 130-year-old American textile company. The textiles 
have taken hits over the years, but it is companies like Glen 
Raven and the family behind Glen Raven that have embraced 
innovation and made the commitment and sacrifices that 
ultimately are paying off today with a thriving company.
    So Mr. Oehmig, a quick question to you. I understand Glen 
Raven has recently announced some exciting changes and 
investments into your Sunbrella design and manufacturing 
operations in North and South Carolina. So if you could just 
share briefly a few more details about this and how an MTB 
would support and enhance these efforts.
    Mr. OEHMIG. Yes. Thank you, Congressman. As mentioned 
earlier, I mean, we have continued to invest heavily in 
Sunbrella even despite paying the tariffs. It is the growth 
engine for our business. We have a thriving textile industry in 
the U.S., but it is driven by innovation and product 
differentiation and really continuing to separate ourselves.
    And so for us in the U.S., I mean, we continue to invest in 
assets. We continue to expand our manufacturing capabilities. 
We recently realigned one of our plants in Western North 
Carolina in an area that badly needs the employment. We saved 
175 jobs there aligning that with the growth engine of our 
business, being Sunbrella. So we are certainly expanding there.
    And we have some of the most well-known furniture designers 
and fabric designers from around the world that are now coming 
to North Carolina because they want exclusive designs, and they 
want to collaborate with us on their design activities.
    And so in order to do that, we have, as I mentioned 
earlier, announced an investment that we are executing now of 
more than $20 million to create a design center that will be a 
source of pride for North Carolina, and obviously a source of 
opportunity for job creation as we are bringing in customers 
and prospective customers from around the world.
    Mr. HOLDING. Thank you very much. I yield back.
    Chairman REICHERT. Thank you all for your testimony and for 
taking time out of your busy schedule to be here. And I want to 
just end on this note, Mrs. Graves. I appreciate your comment 
about the thoroughness of ITC. I think that is one question 
that some members have come to me about. I think it is great to 
hear from the private sector as to what your--at least your 
opinion is of that process.
    And as we look at this piece of legislation, recognizing 
that the process begins with the private sector coming to ITC 
with a request, a review and analysis occurring, 
recommendations then being made by ITC to Congress through the 
Ways & Means Committee, another review process by the chairman 
and the committee members, cannot add to that recommendation 
but can subtract from it. Adding to would then, of course, 
enact the earmark rule. So we cannot do that.
    And then it goes to the floor for a vote. And the Senate, 
of course, through their rules on their side of the legislative 
body in processing legislation, it would go through a similar 
process.
    So the final, to Mr. Neal's point that he was making 
earlier--I understood what he was trying to say. But the final 
say is held in the hands of Congress, not in the hands of the 
President. The review process, the public presentation of the 
ITC recommendation, sits right here in the Ways & Means 
Committee. And that process starts with the chairman sharing 
that information with the public and then moving forward with 
legislation.
    So I appreciate everyone's participation today. And again, 
thank you so much for your testimony, and look forward to next 
week's markup and a vote soon. This hearing is adjourned.
    [Whereupon, at 3:10 p.m., the Subcommittee was adjourned.]
    [Submissions for the record follow:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                     [all]
</pre></body></html>
